IN THE SUPREME COURT OF THE UNITED STATES
TONY BROWN,
PETITIONER,
- vs UNITED STATES OF AMERICA,
RESPONDENT
Certificate of Service
I certify that I was appointed to represent Petitioner, Tony Brown, pursuant to
18 U.S.C. § 3006(A). Consistent with this Court’s April 15, 2020 order regarding
public health concerns relating to Covid 19, I further certify that I served the enclosed
Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit through the Supreme
Court’s electronic-filing program on July 2, 2020. I further certify that all parties are
registered with that electronic-filing program.
Also, consistent with this Court’s April 15, 2020 order, I deposited one copy of
the Motion and Petition in the U.S. mail for delivery to the Court. I did not serve the
government with a paper copy since it has agreed to electronic service.
Dated: July 2, 2020

1350 Columbia St. Suite 600
San Diego, California 92101
Telephone No. (619) 794-0423
Attorney for Petitioner

